HHS/OIG-Audit--"Review of University Recharge Centers at the University of Iowa, Iowa City, Iowa, (A-07-95-00909)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of University Recharge Centers at the University of Iowa, Iowa
City, Iowa," (A-07-95-00909)
July 7, 1995
Complete Text of Report is available in PDF format
(487 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of University Recharge
Centers at the University of Iowa, Iowa City, Iowa (University). The University
generally operated its recharge centers in a satisfactory manner. Based on the
recharge centers reviewed, however, we found the need for improved procedures
and controls to fully comply with all the requirements of Office of Management
and Budget (OMB) Circular A-21, cost Principles for Educational Institutions.
In five recharge centers selected for review, we found: billing rates were not
periodically adjusted to achieve break-even (four centers); equipment was improperly
expensed in the year purchased (three centers); transfers were improperly made
to a capital reserve fund (one center); and, users were billed at different
rates (one center). We are recommending that the University implement certain
procedures and controls over the operation of recharge centers.